                                                EMPLOYMENT AND TRAINING
                                                ADMINISTRATION

                      General—Office of
            Inspector General—Office    Audit
                                     ofAudit




                                                THE STATE OF GEORGIA’S ONE-STOP SYSTEM
                                                IS A WORK IN PROGRESS, BASED ON AN AUDIT
                                                OF TWO ONE-STOP CENTERS
 OfficeofofInspector
Office




                                                                   Date Issued: June 29, 2006
                                                                   Report Number: 06-06-002-03-390
U.S. Department of Labor                               JUNE 2006
Office of Inspector General
Office of Audit                                        The State of Georgia’s One-Stop
                                                       System is a Work in Progress,
BRIEFLY…                                               Based on an Audit of Two One-
                                                       Stop Centers
Highlights of Report Number: 06-06-002-03-390, to
the Assistant Secretary for Employment and Training
Administration.                                        WHAT OIG FOUND

WHY READ THE REPORT                                    In the two One-Stop centers audited, we found that:
The Workforce Investment Act of 1998 mandated
the One-Stop delivery system. It requires states to        1. Some partners may need to provide more
consolidate their predecessor Wagner-Peyser core              presence to provide access to services at
employment services with other job training                   One-Stop centers.
programs to form one seamless service delivery             2. Not all partners are utilizing the State’s
system for its customers.                                     common intake system.
                                                           3. Local Boards established Memoranda of
This includes having one overall application process          Understanding (MOUs), but they are not
with comprehensive services available on site with            used to facilitate the delivery of services and
minimal referrals. However, the law provides                  coordination between partner programs.
flexibility in how the states and local areas
implement this vision, which allows them to address    Georgia has used interagency approaches to
issues that may be unique to their area.               address a variety of policy issues over time.
                                                       However, complete implementation of a fully
                                                       integrated statewide workforce development system
WHY OIG DID THE AUDIT
                                                       is still a work in progress.
The Department of Labor’s Employment and
Training Administration (ETA) views the One-Stop       We found that the Georgia Department of Labor
system as the cornerstone of the new workforce         developed the Georgia Workforce System as an
investment system, which unifies numerous training,    integrated management information system, but it is
education, and employment programs into a single,      not totally integrated with and used by all partners.
customer-friendly system in each community. ETA
envisions one overall service system where One-        Local boards established detailed MOUs to support
Stop truly means one stop.                             the One-Stop concept, and primary partners abided
                                                       by the agreements. However, some partners did not
The OIG conducted a performance audit of the State     completely adhere to them to facilitate the delivery of
of Georgia’s One-Stop system to determine if the       services.
seamless vision was implemented within the State of
Georgia. Our audit included two One-Stops within       WHAT OIG RECOMMENDED
the State of Georgia, and covered the One-Stop’s
organizational structure, management information
system integration, and memoranda of                   We had no recommendations for ETA. This report is
understanding, implemented subsequent to July 1,       one of four states audited during this project, to
2001.                                                  provide the Assistant Secretary an overview of One-
                                                       Stop implementation.
READ THE FULL REPORT
To view the report, including the scope,
methodology, and full agency response, go to:

http://www.oig.dol.gov/public/reports/oa/2006/06-
06-002-03-390.pdf
                                               The State of Georgia’s One-Stop System is a Work in Progress,
                                                                 Based on an Audit of Two One-Stop Centers



Table of Contents
                                                                                                                      PAGE

EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 5

RESULTS AND FINDINGS............................................................................................. 6

   1. Some partners may need to provide more presence to provide access
      to services at One-Stop centers .......................................................................... 6

   2. Not all partners are utilizing the common intake system that Georgia
      Department of Labor developed .......................................................................... 7

   3. Local Boards have established Memoranda of Understanding , but not
      all partners completely adhere to them to facilitate the delivery of
      services and coordination between partner programs...................................... 8


APPENDICES ............................................................................................................... 11

   Appendix A - Background....................................................................................... 13

   Appendix B - Objective, Scope, Methodology, and Criteria................................. 15

   Appendix C - Acronyms and Abbreviations .......................................................... 17




U.S. Department of Labor—Office of Inspector General                                                                       1
Report Number: 06-06-002-03-390
The State of Georgia’s One-Stop System is a Work in Progress,
Based on an Audit of Two One-Stop Centers




                    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 06-06-002-03-390
                                 The State of Georgia’s One-Stop System is a Work in Progress,
                                                   Based on an Audit of Two One-Stop Centers



Executive Summary
The Workforce Investment Act of 1998 mandated the One-Stop delivery system. It
requires states to consolidate their predecessor Wagner-Peyser core employment
services with other job training programs to form one seamless service delivery system
for its customers. The Department of Labor’s (DOL) Employment and Training
Administration (ETA) views the One-Stop system as the cornerstone of the new
workforce investment system, which unifies numerous training, education, and
employment programs into a single, customer-friendly system in each community. ETA
envisions one overall service system where One-Stop truly means one stop. This
includes having one overall application process with comprehensive services available
on site with minimal referrals. However, the law provides flexibility in how the states
and local areas implement this vision, which allows them to address issues that may be
unique to their area.

The purpose of our audit was to determine how this seamless vision is being
implemented within the State of Georgia. To determine if this overall objective was met,
we wanted to answer the following questions:

   1. Does the One-Stop organizational structure support the seamless system
      concept?
   2. Has one overall application process been established to support the One-Stop
      service delivery system?
   3. Are agreements established between partners to implement a system that
      supports the One-Stop concept?


Results

In the two One-Stop centers audited, we found that:

   1. Some partners may need to provide more presence to provide access to services
      at One-Stop centers. We observed that partners that had agreed to provide
      services part-time at a center had not done so, and at another center some
      partners that were housed at the center part-time had no evidence that they had
      served any clients in the 6 months prior to our audit.

   2. Not all partners are utilizing the State’s common intake system. Some partners
      expressed an inability, or unwillingness, to report activities in the Georgia
      Workforce System (GWS). One of the two centers audited uses GWS to report
      only Workforce Investment Act (WIA) partner services, and the other center uses
      the GWS for reporting, and its own internal management information system
      (MIS) for tracking all customer activity. This creates dual record keeping.


U.S. Department of Labor—Office of Inspector General                                        3
Report Number: 06-06-002-03-390
The State of Georgia’s One-Stop System is a Work in Progress,
Based on an Audit of Two One-Stop Centers


    3. Local Boards established Memoranda of Understanding (MOUs), but they are not
       used to facilitate the delivery of services and coordination between partner
       programs. In both of the centers audited, MOUs are established, and mandatory
       partners appear to abide by the established agreements, providing services
       onsite or through referrals. However, some optional partners are not providing
       services as outlined in the agreements.

These results indicate issues identified in two of Georgia’s One-Stop centers and are
not intended to represent conditions in the State’s workforce system as a whole. These
issues are provided to Georgia Department of Labor (GDOL) officials in order to assist
them in the continued streamlining of their workforce system.

Because these conditions may exist in other One-Stops, we encourage ETA to assist
GDOL in identifying and rectifying these conditions in order to continue GDOL’s
implementation of a seamless service system.


Recommendations
We have no recommendations as a result of this audit.


Agency Response

This report was provided to GDOL officials as a discussion draft, and their responses--
primarily that the review results for two One-Stop Centers should not be used to make
recommendations regarding State One-Stops taken as a whole--were considered in
making minor modifications to the report. Due to the OIG’s and GDOL’s involvement in
operations subsequent to Hurricanes Katrina and Rita and, because there are no
recommendations made to the State or ETA, the report was finalized without requesting
formal comments.




4                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 06-06-002-03-390
                                 The State of Georgia’s One-Stop System is a Work in Progress,
                                                   Based on an Audit of Two One-Stop Centers



U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC 20210




                         Assistant Inspector General’s Report


Ms. Emily Stover DeRocco
Assistant Secretary
 for Employment and Training


The Workforce Investment Act of 1998 (hereinafter referred to as the Act) mandated the
One-Stop delivery system. The Act requires states to consolidate their predecessor
Wagner-Peyser core employment services with other job training programs to form one
seamless service delivery system for its customers. ETA envisions one overall service
system where One-Stop truly means one stop. This includes having one overall
application process with comprehensive services available on site with minimal
referrals. However, the law provides flexibility in how the states and local areas
implement this vision.

The seven guiding principles of the Act are:

    •   streamlined services,
    •   empowering individuals,
    •   universal access,
    •   increased accountability,
    •   strong role for local workforce investment boards and the private sector,
    •   state and local flexibility, and
    •   improved youth programs.

Our audit focused on three of the guiding principles of streamlined services, universal
access, and state and local flexibility. The audit objective was to determine if an
environment conducive to the seamless service concept was implemented in the State
of Georgia. We reviewed the following elements at two centers:

   •    center organizational structure
   •    MIS
   •    MOUs

We audited two One-Stop centers in the State of Georgia, and determined that they still
have work to do in their implementation of the seamless service concept.

U.S. Department of Labor—Office of Inspector General                                        5
Report Number: 06-06-002-03-390
The State of Georgia’s One-Stop System is a Work in Progress,
Based on an Audit of Two One-Stop Centers


RESULTS AND FINDINGS

Objective 1: Does the One-Stop organizational structure support the seamless
system concept?

Results: Some partners may need to provide more presence to provide access to
services at One-Stop centers.

The underlying notion of the One-Stop concept is the coordination of programs, services
and governance structures, so customers have access to a seamless system of
workforce services.

In Georgia, GDOL is designated as the lead State workforce administrative entity for
federally funded job training, employment, unemployment insurance, and labor market
information programs. GDOL has made an effort to encourage and promote seamless
and integrated service delivery. The One-Stop system is governed by the State Board
and the local workforce investment boards. In general, the GDOL allows the Local
Boards flexibility in designing local systems that provide and enable maximum customer
access to the full spectrum of workforce and related services, tailored to the area
served.

The State is continuing to address issues related to their implementation of an
integrated service delivery system. According to the State Strategic plan,

        Georgia has used interagency approaches to address a variety of policy
        issues over time. However, complete implementation of a fully integrated
        statewide workforce development system is still a work in progress. To date,
        all areas of the state have achieved substantial integration of Labor-funded
        services, and many additional community partners are involved in local
        systems. Some specific issues that continue to challenge achievement of
        the statewide vision are listed below.

           •   Establishing a sense of ownership of the system among partners.
           •   Retaining the focus on customer choice.
           •   Overcoming resistance to cultural and system change.

We found that center partners shared the concerns identified in the State Strategic plan.
The audit results are based on an audit of two One-Stop centers in Georgia. The State
operates two types of workforce centers:

    •    GDOL Career Centers (53): 28 co-located with WIA One-Stop centers; 25
         stand-alone
    •    WIA-mandated One-Stop Centers (46): 28 co-located with Career Centers; 18
         stand-alone

6                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 06-06-002-03-390
                                 The State of Georgia’s One-Stop System is a Work in Progress,
                                                   Based on an Audit of Two One-Stop Centers


The Career Centers represent the State Employment Security Agencies that existed
prior to WIA. The Career Centers provide predominantly employment service activities,
Trade Adjustment Assistance program, unemployment insurance, and veteran’s
employment service programs. The One-Stops focus on WIA services and training.
The key to effective service delivery is that all services are available for clients, as
indicated in the Federal Register / Vol. 65, No. 156, page 49294:

      . . . Streamlining services through better integration at the street level in
     the One-Stop delivery system. Programs and providers will co-locate,
     coordinate and integrate activities and information, so that the system as
     a whole is coherent and accessible for individual and businesses alike.
     [Emphasis added.]

Accessibility is the key for a system to be effective. In the Georgia workforce system,
local discretion means that partners are either housed in the One-Stops or in the Career
Centers, and partners not physically present are to be readily available.

Our audit work involved a Career Center and a One-Stop center. At the Career Center,
we observed that partners that had agreed to provide services part-time at the center
had not done so. In the One-Stop center, some partners that were housed at the center
part-time had no evidence that they served any clients in the six months prior to our
audit.

This would indicate that all services clients should have access to may not be as readily
accessible as they should be.

Objective 2: Has one overall application process been established to support the
One-Stop service delivery system?

Results and Findings: Not all partners are utilizing the common intake system
that Georgia Department of Labor developed.

The DOL, through WIA regulations, envisions a variety of programs using common
intake, case management, and job development systems to take full advantage of the
potential for efficiency and effectiveness. WIA regulations indicate that a major benefit
of the One-Stop structure is to increase administrative efficiency, as well as
provide more seamless service to the customer through the use of common intake
systems.

We found that GDOL developed the GWS as an integrated MIS. The system allows
GDOL-funded programs to maintain one record for each customer throughout the
service continuum, regardless of the customer’s point of entry into the system. The
GWS is the State’s performance reporting system that is used to record services once
the client goes beyond the self-directed core service activities.


U.S. Department of Labor—Office of Inspector General                                        7
Report Number: 06-06-002-03-390
The State of Georgia’s One-Stop System is a Work in Progress,
Based on an Audit of Two One-Stop Centers

    A. Some partners expressed an inability, or unwillingness, to report activities
       in the GWS.

With GWS developed primarily for GDOL programs, other partners must rely on their
own MIS. At one center, partners expressed an inability to access client history of
activities. Other concerns expressed included a lack of privacy that some programs
require, keeping them from using the GWS.

    B. Some partners within GDOL use separate data systems.

One of the two centers audited uses GWS to report only WIA partner services. The
other center uses the GWS for reporting, and their own internal MIS for tracking all
customer activity. Clients are initially entered into the internal MIS to record core
services, case notes, and other personal information. Because the system does not
communicate electronically with the State GWS, case managers must re-enter client
information into the GWS when clients are enrolled in the WIA program. This creates
dual records being maintained by the two systems.

    C. Non-GDOL partner MIS systems are not linked to GWS, leading to
       duplication of effort.

At both centers we reviewed, regardless of the partners involved, client intake must be
duplicated. GDOL-funded partners can access their MIS from the center, but these
systems do not communicate electronically to the GWS. These partners must reenter
client intake information. The non-GDOL funded partners cannot access their systems
at the center, and must reenter information for clients referred by GDOL-funded
partners at their main program offices.


Objective 3 – Are MOUs established between partners to implement a system that
supports the One-Stop concept?

Results and Findings: Local Boards have established MOUs, but not all partners
completely adhere to them to facilitate the delivery of services and coordination
between partner programs.

In both of the centers audited, MOUs are established, and mandatory partners appear
to abide by the established agreements, providing services onsite or through referrals.

However, some optional partners are not providing services as outlined in the
agreements.

In one center, all mandatory partners were housed at the center either full or part-time,
or had a referral process established in order to provide necessary services. Some of
the required partners are not housed full-time but have pre-set hours when they are on-
site.

8                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 06-06-002-03-390
                                 The State of Georgia’s One-Stop System is a Work in Progress,
                                                   Based on an Audit of Two One-Stop Centers


At the other center, even though MOUs were established, some optional partners have
not continued to maintain a presence at the center, and others reduced their
participation at the center. One cited a lack of demand, and another cited a staffing
shortage. The center has developed a referral process, but we did not assess its
effectiveness.

MOUs are intended to facilitate cooperation and direction for One-Stop operations. The
Act encourages the use of MOUs to establish and define working relationships between
partner agencies in the delivery of services in One-Stop centers. According to the Act,
Chapter 3, Section 121(c), the local Board, with the agreement of the chief elected
official, shall develop and enter into a memorandum of understanding (between the
local board and the One-Stop partners). Each memorandum of understanding shall
contain:

       (i) the services to be provided through the One-Stop delivery system;
       (ii) how the costs of such services and the operating costs of the system will be
       funded;
       (iii) methods for referral of individuals between the One-Stop operator and the
       One-Stop partners, for the appropriate services and activities; and
       (iv) the duration of the memorandum and the procedures for amending the
       memorandum during the term of the memorandum.

ETA cited the need for strong MOUs in its “Final Rule” implementing the Act. 20 CFR
Part 662 et al. provides that “the MOU be the vehicle for addressing the specified issues
of services, costs and referrals. . . .” Additionally, MOUs are the “vehicle through which
the partner’s role in the local system is detailed.” The regulations also cite the need to
“ . . . promote strong MOUs” and how MOUs are the “ . . . primary means for
coordinating the services of the One-Stop partners [and] are the foundation of the entire
workforce investment system.”

With MOUs considered the primary means of coordinating services, when conditions
dictate changes in a partner’s participation, MOUs should be revised to reflect the
changes.

These results indicate issues identified in two of Georgia’s One-Stop centers and are
not intended to represent conditions in the State’s workforce system as a whole. These
issues are provided to GDOL officials in order to assist them in the continued
streamlining of their workforce system.

Because these conditions may exist in other One-Stops, we provide this information to
ETA for their continued oversight in GDOL’s implementation of a seamless service
system.

This report was provided to GDOL officials as a discussion draft, and their responses
were considered in making minor modifications to the report. Because there are no


U.S. Department of Labor—Office of Inspector General                                        9
Report Number: 06-06-002-03-390
The State of Georgia’s One-Stop System is a Work in Progress,
Based on an Audit of Two One-Stop Centers

recommendations made to the State or ETA, the report was finalized without requesting
formal comments.

We conducted this audit in accordance with Government Auditing Standards for
performance audits. Our audit scope, methodology, and criteria are detailed in
Appendix B.




Elliot P. Lewis
September 30, 2005




10                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 06-06-002-03-390
                                 The State of Georgia’s One-Stop System is a Work in Progress,
                                                   Based on an Audit of Two One-Stop Centers




Appendices




U.S. Department of Labor—Office of Inspector General                                       11
Report Number: 06-06-002-03-390
The State of Georgia’s One-Stop System is a Work in Progress,
Based on an Audit of Two One-Stop Centers




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




12                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 06-06-002-03-390
                                 The State of Georgia’s One-Stop System is a Work in Progress,
                                                   Based on an Audit of Two One-Stop Centers

                                                                               APPENDIX A
BACKGROUND

The Act mandated the One-Stop delivery system. It requires states to consolidate their
predecessor Wagner-Peyser core employment services (job referrals, job bank,
employment assistance) with other job training programs (currently WIA Title I
programs, Trade Adjustment Assistance, Veterans, Older Worker, Housing and Urban
Development employment and training, and Community Development Block Grant
employment and training) to form one seamless service delivery system for its
customers. Optional partners include the Temporary Assistance for Needy Families
(TANF) program and Food Stamp employment, training, and work programs.

The Act gives flexibility to the state and local governments to set up their One-Stops as
they determine will best serve their local clients. However, the following core services
must be made available: skills assessments, job search and placement assistance, job
statistics, performance and cost information on training providers, performance
information on One-Stop service delivery, accurate supportive service referrals,
information on filing unemployment insurance claims, assistance in establishing
eligibility for various financial aid programs, and follow-up services.

DOL states in the FY 2001 and 2002 annual reports:

       One-Stop Career Centers provide the focal point for meeting the
       challenges of a global economy. Through the One-Stop Centers,
       communities can build the local partnerships and organize the workforce
       development services that enable adults to acquire the skills needed for
       jobs and career changes that lead to high wages and for businesses to
       meet their ongoing recruitment and human services needs.

ETA envisions one overall service system, where One-Stop truly means one stop. This
includes having one overall application process with comprehensive services available
on site with minimal referrals. This audit report provides ETA with information on how
the State of Georgia operates its One-Stop system to carry out seamless service
delivery.




U.S. Department of Labor—Office of Inspector General                                       13
Report Number: 06-06-002-03-390
The State of Georgia’s One-Stop System is a Work in Progress,
Based on an Audit of Two One-Stop Centers




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




14                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 06-06-002-03-390
                                 The State of Georgia’s One-Stop System is a Work in Progress,
                                                   Based on an Audit of Two One-Stop Centers


                                                                               APPENDIX B
OBJECTIVE, SCOPE, METHODOLOGY, AND CRITERIA

Objective

Our audit objective was to determine if an environment conducive to the seamless
service concept was implemented in the State of Georgia.

Scope

Our audit focused on the WIA principles of streamlined services, universal access, and
state and local flexibility. We determined these would best measure the State’s
implementation of their One-Stop system.

Our analysis of One-Stop center operations was based on the period July 1, 2001,
through April 1, 2004.

Sampling was performed in two stages – first states were selected, then One-Stop
centers within those states were selected. States were selected based on:

        •   TANF presence
        •   obtaining geographic dispersion
        •   population

Georgia was selected as without TANF co-located state. We defined TANF co-located
as: those states that listed a significant number of centers (as compared to the total
number of centers in the state) with TANF eligibility and/or TANF employment and
training activities. Those states with TANF co-located centers were identified from a
Government Accountability Office survey.

We judgmentally selected one urban and one suburban One-Stop center. The urban
area center was a WIA mandated One-Stop center in central Georgia, and the suburban
center was a GDOL career center in Southern Georgia. Centers are not identified due
to the limited number included in the audit work, and agreements with State and local
staff to encourage an open dialogue.

Evidence was obtained through interviewing State, local board, and center staff;
observations of operations; and documentation. Please see “Methodology” for work
performed.




U.S. Department of Labor—Office of Inspector General                                       15
Report Number: 06-06-002-03-390
The State of Georgia’s One-Stop System is a Work in Progress,
Based on an Audit of Two One-Stop Centers

Methodology

Work was performed at three levels.

     •   At the Federal level, we:
             o Interviewed key workforce staff to gain an understanding of the seamless
                service delivery concept, and
             o Obtained and reviewed laws, directives, and regulations pertaining to
                One-Stop operations; and

     •   At the State level, we:
             o Obtained and reviewed their annual WIA plan, 5-year strategic plan, and
                organizational chart,
             o Interviewed key staff responsible for One-Stop operations;
             o Obtained and reviewed policy directives issuing guidance regarding One-
                Stop operations,
             o Obtained and reviewed MOUs to determine coordination efforts, and
             o Discussed the State MIS structure to gain a general understanding of the
                client information flow; and

     •   At the One-Stop centers we:
             o Obtained and reviewed local strategic plan, policies and procedures, and
                other documents to understand how One-Stop services are provided,
             o Interviewed center partners and performed a center walk-through to
                understand how the center operates,
             o Met with MIS staff to understand how One-Stop service data is reported
                and the systems used by the various programs at the center,
             o Obtained and reviewed MOUs for compliance with WIA requirements, and
                to further understand how the One-Stop center is intended to operate, and
             o Conclude whether mandatory and optional partners are served directly by
                the center or through referrals.

Our audit work inherently included an assessment of the general internal controls used
in the general operation of Georgia’s workforce system. Our audit procedures included
an assessment of the workforce system structure and operations.

Criteria

We used the following criteria to perform this audit:

     •   WIA Section 121. Establishment of One-Stop Delivery Activities
     •   WIA Final Rules (20 CFR Part 662) dated August 11, 2000
     •   H.R. 1261, “Workforce Reinvestment and Adult Education Act of 2003”
     •   S. 1627, “Workforce Investment Act Amendments of 2003”



16                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 06-06-002-03-390
                                 The State of Georgia’s One-Stop System is a Work in Progress,
                                                   Based on an Audit of Two One-Stop Centers

                                                                               APPENDIX C
ACRONYMS AND ABBREVIATIONS



   DOL        Department of Labor
   ETA        Employment and Training Administration
   GDOL       Georgia Department of Labor
   GWS        Georgia Workforce System
   MIS        Management Information System
   MOUs       Memoranda of Understanding
   OIG        Office of Inspector General
   TANF       Temporary Assistance to Needy Families
   WIA        Workforce Investment Act




U.S. Department of Labor—Office of Inspector General                                       17
Report Number: 06-06-002-03-390
